           Office Of Inspector General




January 13, 2004

JERRY D. LANE
MANAGER, CAPITAL METRO OPERATIONS

SUBJECT: 	Management Advisory – Vehicle Storage – Robert F. Kennedy Stadium,
         Washington, D.C. (Report Number NL-MA-04-001)

This advisory confirms our verbal notification to Postal Service officials concerning
conditions we observed at the Robert F. Kennedy Stadium (Project Number
03YR007TD000).

In July 2003, during unrelated audit work, we observed approximately 200 Postal
Service vehicles stored at an unsecured Robert F. Kennedy Stadium parking lot in
Washington, D.C. Our inspection of the stadium parking lot, and the vehicles stored
there, identified safety and security concerns, evidence of vandalism and theft, and
insufficient measures to prevent oil from leaking onto the asphalt surface. It is our
practice to immediately advise management of significant observations we make,
particularly if they involve safety, security, or environmental issues.

Our observations, subsequent inquiries, and review of relevant documents, suggested
vehicles stored at the stadium created a potential danger to public safety, the
environment, and the security of stored vehicles and equipment. The conditions existed
because management did not fully consider safety, security, and environmental
requirements. Throughout the course of our work, we verbally notified Capital Metro
Area officials of our observations, and we recommended that management take
immediate action. Management officials agreed with our recommendation and
immediately took corrective action.

The Office of Inspector General considers recommendation 1 significant and closed
because management’s timely corrective actions resolved the identified issues.
Consequently, the Postal Service can close the recommendation in their follow-up
tracking system.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Joe Oliva director, Network
Operations and Logistics, at (703) 248-2100, or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    William P. Galligan
    Susan M. Duchek
Vehicle Storage – Robert F. Kennedy Stadium,                                      NL-MA-04-001
 Washington, D.C.




                                        INTRODUCTION
 Background                     The Postal Service Curseen-Morris Processing and
                                Distribution Center is located in Washington, D.C. In
                                June 2003, the Postal Service leased a nearby




   Postal Service vehicles
    temporarily stored at a
  Robert F. Kennedy Stadium
  parking lot in Washington,
              D.C.




                                Robert F. Kennedy Stadium parking lot to temporarily store
                                about 200 vehicles, while processing and distribution center
                                vehicle storage areas were being repaved.

 Objective, Scope, and          This management advisory confirms our verbal notification
 Methodology                    to Postal Service officials about conditions we observed




  Vehicles were stored at the
   stadium while permanent
 storage areas were repaved.




                                at the stadium. We made these observations during
                                unrelated work. We did not audit or comprehensively
                                investigate the conditions we observed, but we noted


                                                1
Vehicle Storage – Robert F. Kennedy Stadium,                                     NL-MA-04-001
 Washington, D.C.


                               situations that suggested a potential threat to: (1) public
                               safety; (2) the environment; (3) and the security of Postal
                               Service vehicles and equipment. During our work, we
                               inspected the site; identified all vehicles stored there;
                               recorded vehicle identification numbers or other identifying
                               information; photographed conditions; examined relevant
                               policies and procedures; examined the parking lot lease;
                               and recorded other factual information. Work associated
                               with this advisory was conducted from July 2003 through
                               January 2004. During our work we routinely notified Postal
                               Service officials of conditions we observed, discussed our
                               observations and recommendations with them, and
                               documented their immediate response.




                                               2
Vehicle Storage – Robert F. Kennedy Stadium,                                       NL-MA-04-001
 Washington, D.C.


                                               RESULTS
 Public Safety, the             Conditions associated with vehicles stored at Robert F.
 Environment, and the           Kennedy Stadium suggested a potential danger to public
 Security of Postal             safety, the environment, and the security of the vehicles and
 Service Vehicles and           equipment stored there. The conditions existed because
 Equipment                      officials did not fully consider policy governing safety,
                                security, and environmental protection. For example:
                                A letter from the Postal Service senior vice president,
                                Operations, dated October 1, 2001, warned that because
                                the Postal Service is a recognized and accepted presence




  An open gate allowing free
   access to the parking lot.
    There were no security
  guards, cameras, or other
     surveillance devices.




                                throughout the nation, and enjoys high public trust, terrorist
                                elements could take criminal advantage of Postal Service
                                vehicles or equipment to gain unauthorized access to critical
                                areas. Consequently, the senior vice president specified:

                                   •	 Vehicles must be locked and secure at all times.

                                   •	 Vehicle keys and government license plates must be
                                      secured at all times.

                                   •	 Vehicle keys and government license plates must be
                                      inventoried every day.

                                   •	 All plant managers, postmasters, and station
                                      managers must account for all vehicles, government
                                      license plates, and vehicle keys every day.

                                   •	 When vehicles are stored at a contractor’s facility,
                                      managers must contact the contractor every day to
                                      ensure vehicles are still accounted for and secure.




                                                  3
Vehicle Storage – Robert F. Kennedy Stadium,                                        NL-MA-04-001
 Washington, D.C.



                                    •	 When a vehicle or government license plate is
                                       missing, managers must immediately notify the local
                                       police; the Postal Inspection Service; and the
                                       servicing vehicle maintenance facility.

                                    •	 When a vehicle or government license plate is
                                       reported missing, servicing vehicle maintenance
                                       facility managers must immediately report the loss to
                                       the area and headquarters.

                                 The senior vice president emphasized that “in light of the
                                 recent terrorist attacks,” there were no exceptions to the
                                 requirements.




  Keys and equipment left in
       stored vehicle.




                                 In addition, Postal Service Handbook PO-701, Fleet
                                 Management, dated March 1991, requires Postal Service




 Postal Service uniform jacket
 abandoned in stored vehicle.




                                 vehicles to be secured at all times to prevent loss.
                                 Handbook PO-701 also prohibits engine oil drainage, even
                                 in small amounts, into public drainage systems.


                                                  4
Vehicle Storage – Robert F. Kennedy Stadium,                                         NL-MA-04-001
 Washington, D.C.



                               However, our inspection of the stadium parking lot and the
                               vehicles stored there, identified safety and security




 Government license plate on
       stored vehicle.




                               concerns, evidence of vandalism and theft, and insufficient
                               measures to prevent oil from leaking onto the asphalt
                               surface. For example, we found:

                                   •	 An unlocked gate not under surveillance by a security
                                      guard or camera.

                                   •	 A hole in the storage area chain-link fence.

                                   •	 Unlocked vehicles.

                                   •	 Vehicle keys in ignitions.

                                   •	 Letter carrier uniforms, bags, and personal items in
                                      vehicles.

                                   •	 Government license plates still on vehicles.

                                   •	 Glass from broken headlights lying on front bumpers
                                      and on the ground, indicating damage was incurred
                                      after storage.

                                   •	 Fire extinguishers removed from vehicles and lying
                                      on the ground.


                                                5
Vehicle Storage – Robert F. Kennedy Stadium,                                       NL-MA-04-001
 Washington, D.C.



                                   •	 Plastic mail containers placed under vehicles to catch
                                      leaking oil.

                                These conditions resulted because the officials who leased
                                the parking lot did not fully anticipate security or
                                environmental issues before storing vehicles at the stadium.
                                For example, our examination of the lease revealed no




 Broken headlight and broken
     glass lying on bumper
    indicating damage was
     incurred after storage.




                                provisions for guards or other surveillance measures. A
                                Capital Metro Area official we spoke to stated that a request
                                for Postal Service police was made, and that a supervisor
                                was sent to the area every day to inspect the vehicles.
                                However, the same official conceded that he was unaware




  Plastic mail container with
  absorbent material used to
       catch leaking oil.




                                of any Postal Service police actually assigned to secure the
                                area, and a supervisor who inspected the area on July 17,
                                2003, reported to management that the area was not
                                secure. With regard to environmental concerns, our


                                                 6
Vehicle Storage – Robert F. Kennedy Stadium,                                      NL-MA-04-001
 Washington, D.C.


                               inquiries to Postal Service managers revealed that
                               environmentally safe oil catch trays were not available, and
                               consequently, plastic mail trays were used as an expedient.
                               In addition, our inspection identified that trays were not
                               properly placed under the vehicles, and as a result, oil was
                               leaking onto the asphalt.

 Recommendation                Throughout the course of our work, we verbally notified
                               Postal Service management of our observations and we
                               recommended the manager, Capital Metro Operations:

                                   1. Take immediate action to address the safety, security,
                                      and environmental concerns associated with
                                      temporarily storing Postal Service vehicles at Robert
                                      F. Kennedy Stadium.

 Management                    Management agreed with our recommendation, and took
 Response                      immediate action to correct the identified deficiencies. For
                               example, management immediately secured the parking lot;
                               removed keys, government license plates, fire extinguishers
                               and other Postal Service equipment from stored vehicles;
                               replaced plastic mail containers with oil trays; cleaned oil
                               residue from the asphalt surface; and on August 7, 2003,
                               began moving vehicles to permanent storage facilities. On
                               August 11, 2003, we confirmed that all Postal Service
                               vehicles and equipment had been removed from the
                               stadium parking area, and all debris had been cleared.

 Evaluation of                 Management’s timely corrective actions resolved our
 Management’s                  concerns and corrected the issues identified in the report.
 Response




                                                7
